 SIGAR                                                   Special Inspector General for
                                                          Afghanistan Reconstruction




                                                                           SIGAR Financial Audit 13-7




         Department of Defense Program to Support the Afghan
         National Army’s Technical Equipment Maintenance
         Program: Audit of Costs Incurred by Afghan Integrated
         Support Services




            The report was originally issued on June 25, 2013. It was reissued on August 16,
                 2013, to include some clarifications and a revision to Finding 2013-1.




                                                                     DECEMBER
                                                                                          2013

SIGAR Financial Audit 13-7
December 2, 2013

The Honorable Charles T. Hagel
Secretary of Defense

Melanie A. Johnson
Principal Assistant Responsible for Contracting - ACC- Rock Island

Michael R. Hutchison
Deputy to the Commanding General
U.S. Army Contracting Command

This letter transmits the revised results of our audit of costs incurred by Afghan Integrated Support Services
(AISS) 1 under a Department of Defense contract in support of the Afghan National Army’s Technical Equipment
Maintenance Program (A-TEMP). 2 The audit covered the period December 30, 2010, through December 31,
2012, 3 and was performed Mayer Hoffman McCann P.C. It covered $31,886,195 4 in expenditures.
The purpose of the contract was to provide maintenance services to the Afghan National Army for military
vehicles and equipment; train local national employees in vehicle maintenance operations; and enhance the
management, administration, and leadership skills of local national staff.
The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of AISS’s Fund Accountability Statement; 5
    •    determine and report on whether AISS has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in AISS’s financial
         internal controls; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
SIGAR contracted with Mayer Hoffman McCann, an independent audit firm, to perform the audit. SIGAR is
required by auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed
Mayer Hoffman McCann’s audit results and found them to be in accordance with generally accepted
government auditing standards.
Mayer Hoffman McCann issued a disclaimer of opinion on the fair presentation of the Fund Accountability
Statement (FAS) because AISS refused to provide required management representations indicating that it had
made available all information relevant to the audit and is responsible for the contents of the FAS. Mayer



1 AISS is a joint venture established between ANHAM FZCO (a Dubai free zone entity) and AECOM Government Services, Inc.
(a Delaware Corporation).
2 DOD contract number W52P1J-11-C-0015 provided equipment maintenance to the Afghan National Army.
3 The original contract was for 1 year with the option of four 1-year extensions and a final period of performance to end

December 29, 2015.
4 The contract cost $251,561,495, consisting of $96,382,357 in reimbursable costs and $155,179,138 in fixed costs.
5 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
Hoffman McCann identified one recommendation from a prior review for which adequate corrective action has
not been implemented. 6 In addition, Mayer Hoffman McCann reported four internal control deficiencies and
five instances of noncompliance with the terms of the contract or applicable regulations, which prompted the
auditors to question a total of $2,651,664 in unsupported costs. 7 Mayer Hoffman McCann’s original financial
audit report transmitted to you on July 11, 2013, questioned an additional $217,643 as ineligible costs. 8
Specifically, the original report noted that lease of land in the amount of $212,504 and subcontract labor in
the amount of $5,139 were incorrectly recorded and claimed by AISS as reimbursable costs. However, our
subsequent review indicates that these costs were not paid by the Department of Defense and have been
adjusted out of AISS’s accounting records. Therefore, this revised letter no longer questions these costs. See
table 1 below.
Table 1 - Summary of Questioned Costs
                                                Questioned Costs
                   Category                                                     Ineligible               Unsupported
                                                      Total

    Spare Parts                                                $17,618                                             $17,618

    Defense Base Act Insurance                              $272,120                                              $272,120

    Construction of Warehouse Facility                    $2,361,926                                              2,361,926

    Totals                                                $2,651,664                     $0                     $2,651,664

Given the results of the audit, SIGAR recommends that the Contracting Officer:

       1. Determine the allowability of and recover, as appropriate, $2,651,664 in questioned costs identified
          in the report. 9

       2. Advise AISS to address the four internal control findings identified in the report.

       3. Advise AISS to address the five compliance findings identified in the report.




6 In December 2011, the U.S. Defense Contract Management Agency recommended that AISS implement an effective
inventory system. The enclosed report finds that AISS has not taken adequate action to implement such a system. See
Finding 2013-6.
7 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.
8 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by the Department of Defense to make a final determination regarding
allowability.
9 In the original audit report transmitted to you on July 11, 2013, we recommended that the Contracting Officer determine

the allowability of and recover, as appropriate, $2,869,307 in questioned costs. We have modified this recommendation in
our letter, reducing total questioned costs to $2,651,664 to account for the subsequent removal of $217,643 in ineligible
questioned costs. See revised finding 2013-1.




                                                           2
We will be following up with your department to obtain information on the corrective actions taken in response
to our recommendations.




John F. Sopko
Special Inspector General for Afghanistan Reconstruction
(F-001)




                                                      3
                   AFGHAN INTEGRATED SUPPORT SERVICES

                      Financial Audit of Costs Incurred by under
                          Contract No. W52P1J-11-C-0015

            For the Period December 30, 2010 through December 31, 2012




This report was originally issued on June 29, 2013. It was reissued on August 16,
      2013 to include some clarifications and a revision to Finding 2013-01.
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                For the Period December 30, 2010 through December 31, 2012


                                      Table of Contents


                                                                             Page
Summary:
 Background                                                                   1
 Objectives, Scope and Methodology                                            1
 Summary of Results                                                           4
 Review of Prior Audit Recommendation                                         7

Independent Auditor’s Report on Fund Accountability Statement                 9

Fund Accountability Statement                                                 12

Notes to Fund Accountability Statement                                        13

Independent Auditor’s Report on Internal Control                              18

Independent Auditor’s Report on Compliance                                    21

Findings and Responses                                                        23

Appendix A: AISS Response to Findings                                         36
                          AFGHAN INTEGRATED SUPPORT SERVICES

                                 Financial Audit of Costs Incurred under
                                    Contract No. W52P1J-11-C-0015

                    For the Period December 30, 2010 through December 31, 2012


SUMMARY

Background

The Office of Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with Mayer
Hoffman McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred of Contract No. W52P1J-
11-C-0015 (Contract), between Afghan Integrated Support Services (AISS) and the U.S. Department of
Defense (DoD). This Contract contains both reimbursable and fixed cost components. The original
contract was awarded on December 30, 2010 in the amount of $29,857,827. The period of
performance was for a base year, and four one-year options with the final period of performance to end
December 29, 2015. This Contract has been amended 32 times, and the Contract value has been
increased to $251,561,495, consisting of $96,382,357 in reimbursable costs and $155,179,138 in fixed
costs.

Afghan Integrated Support Services (AISS) is a joint venture established between ANHAM FZCO (a
Dubai free zone entity) (ANHAM) and AECOM Government Services, Inc. (a Delaware Corporation)
(AECOM) through a Joint Venture Agreement (Agreement) dated September 28, 2010. AISS was
awarded a maintenance and capacity-building contract by the U.S. Army to support the Afghan National
Army’s Technical Equipment Maintenance Program (A-TEMP). A-TEMP supports the ongoing efforts
of the U.S. Army in Afghanistan in standing up the Afghan National Army. AISS is to provide
maintenance services to the Afghanistan National Army military vehicles and equipment; develop and
train local nationals in vehicle maintenance operations; and enhance the skills of local nationals in
areas of management, administration and leadership. The mission is to be performed at eight
equipment maintenance sites, and associated training is to be conducted by advisory maintenance
teams within 23 Afghan battalions throughout Afghanistan.


Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •   Internal Controls – Evaluate and obtain a sufficient understanding of AISS’ internal controls
       related to the award; assess control risk; and identify and report on significant deficiencies
       including material internal control weaknesses.

   •   Compliance – Perform tests to determine whether AISS complied, in all material respects, with
       the award requirements and applicable laws and regulations; and identify and report on
       instances of material noncompliance with terms of the award and applicable laws and
       regulations, including potential fraud or abuse that may have occurred.




                                                     1
                          AFGHAN INTEGRATED SUPPORT SERVICES

                                 Financial Audit of Costs Incurred under
                                    Contract No. W52P1J-11-C-0015

                    For the Period December 30, 2010 through December 31, 2012


SUMMARY

   •    Corrective Action on Prior Audit Recommendations – Determine and report on whether AISS
        has taken adequate corrective action on prior external audit report recommendations or other
        external assessment recommendations.

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS presents
        fairly, in all material respects, revenues received, costs incurred, items directly procured by the
        U.S. Government and fund balance for the period audited in conformity with the terms of the
        award and generally accepted accounting principles or other comprehensive basis of
        accounting.


Scope

The scope of this audit included all costs related to the spare parts, Defense Base Act (DBA) insurance
and construction of the Central Warehouse Facility (CWF) that were incurred during the period
December 30, 2010 to December 31, 2012 under Contract No. W52P1J-11-C-0015 between AISS and
the DoD. In addition, the scope included the fixed cost component of the subject contract only in an
effort to ensure that fixed costs were not also included in reimbursable costs.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include the
following:

Entrance Conference

An entrance conference was held via conference call on December 18, 2012 with representatives of
AECOM, ANHAM, SIGAR and DoD in attendance.

Planning

During our planning phase, we performed the following:

   •    Obtained an understanding of AISS;
   •    Reviewed the Contract and modifications to AISS;
   •    Selected samples based on our approved sampling techniques;
   •    Prepared the FAS using accounting records obtained from AISS; and
   •    Scheduled work in Afghanistan




                                                     2
                         AFGHAN INTEGRATED SUPPORT SERVICES

                                Financial Audit of Costs Incurred under
                                   Contract No. W52P1J-11-C-0015

                   For the Period December 30, 2010 through December 31, 2012


SUMMARY

Internal Control Related to the FAS

AISS refused to prepare the FAS and did not complete our requested internal control questionnaires,
as the Board of Directors of AISS were of the opinion that the FAS and the internal control
questionnaires were not within the scope of the audit. We reviewed AISS’ internal controls related to
the expenses incurred and the revenue recorded through interviews with management and key
personnel, a review of policies and procedures, identifying key controls within significant transaction
cycles, and testing those key controls.

Compliance with the Contract Requirements and Applicable Laws and Regulations

We reviewed the Contract, modifications and any subawards and documented all compliance
requirements that could have a direct and material effect on the costs incurred as presented on the
FAS. We assessed inherent and control risk as to whether material noncompliance could occur.
Based upon our risk assessment, we designed procedures to test a sample of transactions to ensure
compliance.

Corrective Action on Prior Audit Recommendations

We requested all prior audit reports and recommendations provided in order to evaluate the status of
the prior audit recommendations by reviewing evidence of any corrective actions taken. See the
Review of Prior Audit Recommendations subsection of this Summary for a status of applicable prior
findings.

Fund Accountability Statement

We performed the following:

   •   Obtained the costs for the FAS from the Contract and general ledger;
   •   Obtained revenue and receipt of funds from the accounting records;
   •   Prepared the FAS using accounting records obtained from AISS; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to the
       contract, and reasonable.

Exit Conference

An exit conference was held on April 22, 2013. Attendees included AISS, SIGAR and DoD. During the
exit conference, we discussed the preliminary results of the audit and established a timeline for
providing any final documentation for consideration and reporting.




                                                   3
                         AFGHAN INTEGRATED SUPPORT SERVICES

                                Financial Audit of Costs Incurred under
                                   Contract No. W52P1J-11-C-0015

                    For the Period December 30, 2010 through December 31, 2012


SUMMARY

Summary of Results

Our audit of the costs incurred by AISS under the Contract with DoD identified the following matters:


Auditor’s Opinion on FAS

We issued a disclaimer of opinion on the fairness of the presentation of the FAS. This opinion was a
result of AISS not providing required management representations indicating that it has provided us
with all relevant information and is responsible for the contents of the FAS, among other matters, upon
which we would based our opinion. In the absence of such representations, the scope of our work was
not sufficient to enable us to express an opinion on the Fund Accountability Statement.


Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are those
costs that are deemed to not be allowable in accordance with the terms of the contract or applicable
laws and regulations. Unsupported costs are those costs for which no or inadequate supporting
documentation was provided for our review. A summary of questioned costs is as follows.

Ineligible Costs

   •   Lease of land in the amount of $212,504 and subcontract labor in the amount of $5,139 were
       recorded and billed to DoD as reimbursable costs as part of the CWF costs. However, these
       costs were approved under the fixed cost portion of the Contract and should not also be
       reimbursed to AISS as that would constitute double payment on the part of DoD. AISS refused
       to provide us with access to the records supporting the fixed cost portion of the Contract citing
       that it was outside the scope of the audit. Total questioned cost is $217,643. See Finding
       2013-1 in the Findings and Responses section of this report.

Unsupported Costs

   •   AISS subcontracted the construction of the CWF to one of its affiliate partners. The subcontract
       was on a fixed fee basis. However, a competitive bidding process was not performed. The total
       CWF construction cost incurred was $2,361,926. See Finding 2013-2 in the Findings and
       Responses section of this report.

   •   Expenses incurred for micro-purchasing spare parts (items with an individual cost up to $3,000)
       were not consistently supported with adequate documentation in accordance with established
       procurement policies and Federal regulations. The total cost of insufficiently supported spare
       parts was $17,618. See Finding 2013-3 in the Findings and Responses section of this report.


                                                   4
                          AFGHAN INTEGRATED SUPPORT SERVICES

                                 Financial Audit of Costs Incurred under
                                    Contract No. W52P1J-11-C-0015

                    For the Period December 30, 2010 through December 31, 2012


SUMMARY

   •   Expenses incurred for DBA insurance premiums were insufficiently supported, which resulted in
       questioned amounts totaling $272,120. See Finding 2013-4 in the Findings and Responses
       section of this report.

Total questioned costs as a result of our audit are as follows, which represents a material misstatement
of the costs incurred as presented on the FAS. The ultimate determination of whether the identified
questioned costs are to be accepted or disallowed rests with DoD.

       Ineligible costs                        $ 217,643
       Unsupported costs                        2,651,664

        Total questioned costs                 $2,869,307


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency, and
material weakness. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions,
to prevent, or detect and correct, misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or a combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the costs incurred as presented on the FAS will
not be prevented, or detected and corrected on a timely basis.

A summary of the internal control findings noted as a result of the audit are as follows:

Material Weakness

The following material weaknesses were identified.

       Finding                                                                        Auditee’s
       Number                Internal Control Finding – Material Weakness            Concurrence
       2013-1        Lease of land in the amount of $212,504 and subcontract          Disagree
                     labor in the amount of $5,139 were recorded and billed to
                     DoD as reimbursable CWF costs. However, these costs
                     were previously approved under the fixed cost portion of
                     the Contract.

The complete management response from AISS to each of the internal control findings can be found in
the Findings and Responses section of this report.


                                                     5
                          AFGHAN INTEGRATED SUPPORT SERVICES

                                 Financial Audit of Costs Incurred under
                                    Contract No. W52P1J-11-C-0015

                     For the Period December 30, 2010 through December 31, 2012


SUMMARY

Significant Deficiency

The following significant deficiencies were identified.

       Finding                                                                     Auditee’s
       Number              Internal Control Finding – Significant Deficiency      Concurrence
        2013-3       Lack of adherence to procurement procedures for micro-        Disagree
                     purchasing of spare parts resulted in insufficient
                     documentation provided such as invoices, required
                     employee signatures, approval signatures, and the Micro
                     Purchase Fund Summary did not agree to the Cash
                     Disbursement Voucher. Total questioned spare parts are
                     $17,618.

        2013-4       Expenses incurred for DBA insurance premiums were              Disagree
                     insufficiently supported, which resulted in questioned
                     amount of $272,120.

        2013-6       AISS does not have an adequate tracking system for its         Disagree
                     spare parts inventory.


The complete management response from AISS to each of the internal control findings can be found in
the Findings and Responses section of this report.

Deficiencies

No deficiencies were reported.


Compliance Findings

As part of obtaining reasonable assurance about whether the costs incurred as presented in the FAS
are free from material misstatement, we performed tests of its compliance with certain provisions of the
Contract and other laws and regulations, noncompliance with which could have a direct and material
effect on the accuracy of the FAS. The results of our tests disclosed the following compliance findings.

       Finding                                                                    Auditee’s
       Number                           Compliance Finding                       Concurrence
       2013-1        Lease of land in the amount of $212,504 and                  Disagree
                     subcontract labor in the amount of $5,139 were recorded
                     and billed to DoD as reimbursable CWF costs.


                                                     6
                          AFGHAN INTEGRATED SUPPORT SERVICES

                                 Financial Audit of Costs Incurred under
                                    Contract No. W52P1J-11-C-0015

                   For the Period December 30, 2010 through December 31, 2012


SUMMARY

       Finding                                                                  Auditee’s
       Number                             Compliance Finding                   Concurrence
                      However, these costs were previously approved under
                      the fixed cost portion of the Contract.

        2013-2        The subcontract to build the CWF was not procured          Disagree
                      using a competitive bidding process. Total questioned
                      cost is $2,361,926.

        2013-4        Expenses incurred for DBA insurance premiums were          Disagree
                      insufficiently supported, which resulted questioned
                      amount of $272,120.

        2013-5        The CWF was not built in accordance with the approved      Disagree
                      floor plan and a revised cost proposal was never
                      approved.

        2013-6        AISS does not have an adequate tracking system for its     Disagree
                      spare parts inventory.


The complete management response from AISS to each of the compliance findings can be found in the
Findings and Responses section of this report.


Review of Prior Findings and Recommendations

We reviewed the corrective actions taken to address findings and recommendations from previous
engagements that could have a material effect on the costs incurred as presented in the FAS. AISS did
not disclose the existence of any prior audits to us. However, we obtained from the U.S. Defense
Contract Management Agency (DCMA), a report on results from periodic reviews performed by DCMA
in December 2011 on the Contract. There was one Corrective Action Response (CAR) that relates to
an observation identified in the report. Based upon our review, adequate corrective action has not
been implemented to resolve this observation. See Finding 2013-6 in the Findings and Responses
section of this report.

   •   Inventory System

       Observation:

       Inventory was not accurate. Two out of three parts had the wrong quantity on the inventory.
       AISS did not perform an inventory count of 10% of its total inventory on a monthly basis as


                                                   7
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                For the Period December 30, 2010 through December 31, 2012


SUMMARY

    required by DoD and the A-TEMP Contracting Officer Representative (COR) had not been
    provided a copy of the documentation in support of the total inventory.

    Adequacy of Corrective Action:

    DCMA records indicated that the corrective action was properly implemented and consequently
    the CAR was closed by DCMA. We conducted an onsite physical inspection of the inventory at
    the CWF and noted that spare parts were not properly tagged to distinguish whether they were
    procured under this Contract, donated by the U.S. government, or transferred from a prior
    contract. As such, AISS was unable to identify which specific parts and their quantities were
    procured under the Contract. Thus, the correction action taken is not adequate and this
    condition has been repeated. See finding 2013-6 in the Finding and Responses section of this
    report.




                                              8
Board of Directors
Afghan Integrated Support Services
1200 Summit Avenue, Suite 320
Fort Worth, Texas 76102



                             INDEPENDENT AUDITORS’ REPORT
                           ON FUND ACCOUNTABILITY STATEMENT


Report on the Fund Accountability Statement

We were engaged to perform a financial audit of costs incurred included in the accompanying
Fund Accountability Statement, which was based upon accounting records maintained by the
Afghan Integrated Support Services (AISS) for Contract No. W52P1J-11-C-0015 (Contract) with
the United States Department of Defense (DoD) for the period December 30, 2010 through
December 31, 2012, and the related notes to the Fund Accountability Statement.


Management’s Responsibility for the Fund Accountability Statement

For the purposes of this audit, management is responsible for the preparation and fair
presentation of the Fund Accountability Statement in accordance with accounting principles
generally accepted in the United States of America; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of the Fund
Accountability Statement that is free from material misstatement, whether due to fraud or error.


Auditors’ Responsibility

Our responsibility is to express an opinion on the costs incurred as presented on the Fund
Accountability Statement based on conducting the audit in accordance with auditing standards
generally accepted in the United States of America and the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States, except as it relates to continuing education and peer review requirements as
discussed in the following paragraph.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by
reviewers independent of the organization at least once every three years. We subcontracted a
portion of the audit to an independent chartered public accounting firm with an office located in


                                               9
Board of Directors
Afghan Integrated Support Services
1200 Summit Avenue, Suite 320
Fort Worth, Texas 76102

Kabul, Afghanistan. The work performed by our subcontractor consisted of testing the spare
parts inventory stock held in the Central Warehouse Facility (CWF) and inspecting the CWF
constructed in Kabul under the Contract. Our subcontractor was not involved in the planning,
directing or reporting aspects of the audit. Our subcontractor did not meet the continuing
professional education requirements or peer review requirements as outlined in Government
Auditing Standards, as the firm is located and licensed outside of the United States of America.
The results of the audit were not affected as we directed the procedures performed and
reviewed the work completed by our subcontractor.

Because of the matter described in the Basis for Disclaimer of Opinion paragraph, however, we
were not able to obtain sufficient appropriate audit evidence to provide a basis for an audit
opinion.


Basis for Disclaimer of Opinion

Management of AISS did not provide us with certain representations that we requested to
represent that it has responsibility for the presentation of the Fund Accountability Statement and
that it has provided us with all relevant information, among other matters, upon which we would
base our opinion. Since AISS did not provide us with the requested representations, the scope
of our work was not sufficient to enable us to express, and we do not express, an opinion on the
fairness of the presentation of the Fund Accountability Statement.


Disclaimer Opinion

Because of the significance of the matter described in the Basis for Disclaimer of Opinion
paragraph, we have not been able to obtain sufficient appropriate audit evidence to provide a
basis for an audit opinion. Accordingly, we do not express an opinion on the Fund
Accountability Statement.


Emphasis of Matter

During our audit, we identified several fixed cost items, including lease of land in the amount of
$212,504 and subcontract labor in the amount of $5,139, totaling $217,643 that were billed to
the DoD as reimbursable costs. We requested the detailed financial records underlying the
fixed costs portion of the Contract to ensure that costs claimed as reimbursable were also not
claimed as fixed costs. AISS refused to provide access to these records indicating it was
outside the scope of the audit. Total fixed costs per the Contract for the period December 30,
2010 through December 31, 2012 were $155,179,138.

We also identified several transactions totaling $2,651,664 that were questionable based upon
our review of the underlying support for the specified transactions. The ultimate determination
of whether the identified questioned costs are to be accepted or disallowed rests with the DoD.




                                               10
Board of Directors
Afghan Integrated Support Services
1200 Summit Avenue, Suite 320
Fort Worth, Texas 76102

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated
June 25, 2013 on our consideration of AISS' internal control over financial reporting and on our
tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on internal control over financial reporting or on compliance.
Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering AISS’ internal control over financial reporting and compliance.




Irvine, California
August 16, 2013




                                                11
                                  Financial Audit of Costs Incurred under
                                     Contract No. W52P1J-11-C-0015

                                      Fund Accountability Statement

                       For the Period December 30, 2010 through December 31, 2012



                                                                                 Questioned Costs
                                           Budget               Actual       Ineligible  Unsupported    Notes
Revenues:
  W52P1J-11-C-0015                         96,382,357          31,986,190         -              -      (3), (4)

Total revenues                             96,382,357          31,986,190         -              -

Costs incurred:
  Spare parts                              86,371,152          28,950,098         -           17,618      (5)
  Defense Base Act insurance                7,733,770             356,528         -          272,120      (6)
  Construction of Central Warehouse
    Facility                                2,277,435           2,579,569     217,643      2,361,926      (7)

Total costs incurred                       96,382,357          31,886,195     217,643      2,651,664

Outstanding fund balance               $          -        $      99,995    $ (217,643) $ (2,651,664)     (8)




                               See Notes to Fund Accountability Statement

                                                      12
                       AFGHAN INTEGRATED SUPPORT SERVICES

                              Financial Audit of Costs Incurred under
                                 Contract No. W52P1J-11-C-0015

                              Notes to Fund Accountability Statement

                  For the Period December 30, 2010 through December 31, 2012


(1)   Status and Operation

      Afghan Integrated Support Services (AISS) is a joint venture established between ANHAM
      FZCO (a Dubai free zone entity) (ANHAM) and AECOM Government Services, Inc. (a Delaware
      Corporation) (AECOM) through a Joint Venture Agreement (Agreement) dated September 28,
      2010. Both ANHAM and AECOM have a 50% ownership in AISS. The Agreement is subject to
      and interpreted in accordance with the laws of the State of New York. AISS will terminate upon
      the occurrence of any of the events per article XVI of the Agreement.

      The principal place of business of AISS is Dubai, United Arab Emirates. The managing party of
      the AISS is AECOM, who is responsible for the management, operation and administration of
      the affairs of AISS, subject to the supervision of the management board, which consists of two
      representatives each from AECOM and ANHAM.

      The objective of AISS was to submit a proposal to obtain a technical equipment maintenance
      program contract from the United States Government, and completing the work contemplated
      by the contract. AISS’ main activities are the provision of vehicle and heavy equipment
      maintenance and certain training services within the country of Afghanistan.

      On December 30, 2010, AISS was awarded Contract No. W52P1J-11-C-0015 (Contract) from
      the U.S. Department of Defense (DoD) in the initial amount of $29,857,827. The period of
      performance was for a base year, and four one-year options with the final period of performance
      to end December 29, 2015. This Contract has been amended 32 times, and the Contract value
      has been increased to $251,561,495. Under the terms of the Contract, AISS is to provide
      maintenance and capacity-building by the U.S. Army to support the Afghan National Army’s
      Technical Equipment Maintenance Program (A-TEMP). A-TEMP supports the ongoing efforts
      of the U.S. Army in Afghanistan in standing up the Afghan National Army. AISS is to provide
      maintenance services to the Afghan National Army military vehicles and equipment; develop
      and train local nationals in vehicle maintenance operations; and enhance the skills of local
      nationals in areas of management, administration and leadership. The mission is to be
      performed at eight equipment maintenance sites, and associated training is to be conducted by
      advisory maintenance teams within 23 Afghan battalions throughout Afghanistan.




                                                13
                       AFGHAN INTEGRATED SUPPORT SERVICES

                              Financial Audit of Costs Incurred under
                                 Contract No. W52P1J-11-C-0015

                             Notes to Fund Accountability Statement

                                           (Continued)


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement (FAS) reflects the revenues received and expenses
             incurred under the Contract. It has been prepared on the accrual basis of accounting
             and is based upon the financial records of AISS. Under the accrual basis of accounting,
             revenues are recognized when earned and expenses are recognized when incurred.

      (b)    Foreign Currency Conversion Method

             All of the invoices were billed in U.S. Dollars. No currency conversion was required for
             this Contract.

      (c)    Questioned Costs

             There are two categories of questioned costs, ineligible and unsupported. Ineligible
             costs are those costs that are deemed to not be allowable in accordance with the terms
             of the Agreement and applicable laws and regulations. Unsupported costs are those
             costs for which no or inadequate supporting documentation was provided for our review.


(3)   Revenues

      As of December 31, 2012, AISS has reported $31,986,190 in revenue from DoD under the
      Contract. For the period December 30, 2010 through December 31, 2012, AISS has invoiced a
      total of $27,297,433 to DoD, and has been reimbursed $1,148,373. Under the accrual basis of
      accounting, additional revenues have been earned in the amount of $4,688,757, for which
      invoices have not yet been prepared.


(4)   Fixed Cost Component of the Contract

      AISS refused to provide information regarding revenue and expenses associated with the fixed
      cost component of the Contract. As such, the FAS does not reflect revenue and expenses
      associated with the fixed cost.




                                                14
                       AFGHAN INTEGRATED SUPPORT SERVICES

                              Financial Audit of Costs Incurred under
                                 Contract No. W52P1J-11-C-0015

                              Notes to Fund Accountability Statement

                                            (Continued)


(5)   Spare Parts

      AISS reported spare parts in the amount of $28,950,098 for the period December 30, 2010
      through December 31, 2012. Unsupported spare parts consisted of the following. See Finding
      2013-3 in the Findings and Responses section of this report.

                                                                    Number        Questioned
                               Observation                          of Errors       Cost
           Cash Disbursement Voucher is missing “received by”
            signatures                                                    5        $3,275
           Cash Deposit Voucher is not legible                            1         3,928
           No employee signature on Lost/Missing Receipt                  4         8,296
            Form
           The total amount reported on the Micro Purchase
            Fund Summary does not agree to the Cash
            Disbursement Voucher                                          1            119
           Cash Disbursement Vouchers are missing “received
            by” signatures and no employee signature on
            Lost/Missing Receipt Form                                     2          2,000

             Total questioned costs related to spare parts              13        $17,618


(6)   Defense Base Act (DBA) Insurance

      AISS reported DBA insurance premiums in the amount of $356,528 for the period December 30,
      2010 through December 31, 2012. This amount consisted of DBA insurance premiums incurred
      by AECOM for the policy years ended January 14, 2012 and January 14, 2013, and one of its
      subcontractors for the policy year ended May 1, 2011. Unsupported DBA insurance consisted
      of the following. See Finding 2013-4 in the Findings and Responses section of this report.

      •   AECOM recorded estimated DBA insurance premium for the policy year ended January 14,
          2013 in the amount of $96,249. A reconciliation was not performed until March 2013, and
          AISS did not provide supporting documentation for the payroll costs used in the calculation
          prior to the end of our audit. As such, we questioned the total amount recorded of $96,249.

      •   AECOM incurred DBA insurance costs for the policy year ended January 14, 2012 in the
          amount of $100,147. Of this amount, the following has been questioned:




                                                15
                       AFGHAN INTEGRATED SUPPORT SERVICES

                              Financial Audit of Costs Incurred under
                                 Contract No. W52P1J-11-C-0015

                              Notes to Fund Accountability Statement

                                           (Continued)


(6)   Defense Base Act (DBA) Insurance (Continued)

                                                                     Number       Questioned
                                 Observation                      of Employees    DBA Cost
             No support provided for time charged                       2          $ 460
             No support provided for time charged and no
               supervisor approval on timesheets                         1              2,696
             No supervisor approval and no job code on
               timesheets                                                1                616
             No supervisor approval on timesheets                        1              5,041
             Incorrect job codes on timesheets                          11              6,926

               Total questioned costs related to DBA premium
                for 2012                                                16          $15,739

      •   AISS claimed DBA insurance for its subcontractor for the policy year ended May 1, 2011 in
          the amount of $160,132. However, no supporting documentation was provided for the
          payroll costs used in the calculation of the DBA premium. As such, we questioned the total
          amount recorded of $160,132.

      The total DBA premiums questioned were as follows:

                                                                          Questioned
                                  Description                               Cost
             AECOM – DBA policy for year ended January 14, 2013           $ 96,249
             AECOM – DBA policy for year ended January 14, 2012             15,739
             Subcontractor – DBA policy for year ended May 1, 2011         160,132

               Total questioned costs related to DBA insurance               $272,120


(7)   Construction of the Central Warehouse Facility (CWF)

      AISS reported construction costs for the CWF in the amount of $2,579,569 for the period
      December 30, 2010 through December 31, 2012. Questioned costs for the construction of the
      CWF consisted of the following:




                                                16
                        AFGHAN INTEGRATED SUPPORT SERVICES

                               Financial Audit of Costs Incurred under
                                  Contract No. W52P1J-11-C-0015

                              Notes to Fund Accountability Statement

                                            (Continued)


(7)   Construction of the Central Warehouse Facility (CWF)

      •   AISS subcontracted the construction of the CWF to one of its affiliate partners in
          Afghanistan. The subcontract was on a fixed fee basis. However, there were no
          competitive bids sought, nor was a justification for a sole source contract provided. As such
          we have questioned the total CWF construction costs paid under this subcontract in the
          amount of $2,361,926. See Findings 2013-2 and 2013-5 in the Findings and Responses
          section of this report.

      •   Lease of land in the amount of $212,504 and subcontract Labor in the amount of $5,139,
          which were costs incurred under the fixed cost portion of the contract, were incorrectly
          recorded as a reimbursable cost of the CWF in line item number #8AA. Total questioned
          costs were $217,643. See Findings 2013-1 in the Findings and Responses section of this
          report.


(8)   Reconciliations

      As of December 31, 2012, AISS reported an excess fund balance in the amount of $99,995,
      which represented revenue earned but not yet billed in excess of costs incurred.


(9)   Subsequent Event

      In January 2013, the DoD rejected an invoice from AISS in the amount of $2,277,164 for the
      construction of the CWF. AISS subsequently withdrew the invoice due to miscoding of the fixed
      cost component of the cost items that has been claimed as reimbursable costs.




                                                 17
          REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                                Independent Auditors’ Report


Board of Directors
Afghan Integrated Support Services
1200 Summit Ave, Suite 320
Fort Worth, Texas 76102


We were engaged to perform a financial audit of costs incurred included in the accompanying
Fund Accountability Statement, which was based upon accounting records maintained by the
Afghan Integrated Support Services (AISS) for Contract No. W52P1J-11-C-0015 (Contract) with
the U.S. Department of Defense for the period December 30, 2010 through December 31, 2012,
and the related notes to the Fund Accountability Statement. We performed the audit in
accordance with the auditing standards generally accepted in the United States of America and
the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States, the Fund Accountability Statement of Afghan
Integrated Support Services (AISS) representing revenues received and costs incurred under
Contract No. W52P1J-11-C-0015 (Contract) with the U.S. Department of Defense for the period
December 30, 2010 through December 31, 2012, and the related notes to the Fund
Accountability Statement, and have issued our report thereon dated June 25, 2013, except as it
relates to continuing education and peer review requirements as discussed in the following
paragraph.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by
reviewers independent of the organization at least once every three years. We subcontracted a
portion of the audit to an independent chartered public accounting firm with an office located in
Kabul, Afghanistan. The work performed by our subcontractor consisted of testing the spare
parts inventory stock held in the Central Warehouse Facility (CWF) and inspecting the CWF
constructed in Kabul under the Contract. Our subcontractor was not involved in the planning,
directing or reporting aspects of the audit. Our subcontractor did not meet the continuing
professional education requirements or peer review requirements as outlined in Government
Auditing Standards, as the firm is located and licensed outside of the United States of America.



                                               18
Board of Directors
Afghan Integrated Support Services
1200 Summit Ave, Suite 320
Fort Worth, Texas 76102

The results of the audit were not affected as we directed the procedures performed and
reviewed the work completed by our subcontractor.


Internal Control over Financial Reporting

In planning and performing our audit of the costs incurred as presented on the Fund
Accountability Statement, we considered AISS' internal control over financial reporting (internal
control) to determine the audit procedures that were appropriate in the circumstances for the
purpose of expressing our opinion on the costs incurred as presented on the Fund
Accountability Statement, but not for the purpose of expressing an opinion on the effectiveness
of AISS’ internal control. Accordingly, we do not express an opinion on the effectiveness of
AISS’ internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control might be material weaknesses or significant deficiencies and therefore,
material weaknesses or significant deficiencies may exist that were not identified. However, as
described in the accompanying Findings and Responses, we identified certain deficiencies in
internal control that we consider to be material weaknesses and significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s Fund Accountability Statement will not be
prevented, or detected and corrected on a timely basis. We consider the deficiency described
in the accompanying Findings and Reponses as Finding 2013-1 to be a material weakness.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiencies described in the accompanying Findings and
Responses as Findings 2013-3, 2013-4 and 2013-6 to be significant deficiencies.


AISS’ Response to Findings

AISS’ response to the findings identified in our audit is described in the accompanying Findings
and Responses, and included verbatim in Appendix A. AISS’ response was not subjected to the
auditing procedures applied in the audit of the costs incurred as presented on the Fund
Accountability Statement and, accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and
the result of that testing, and not to provide an opinion on the effectiveness of AISS’ internal
control. This report is an integral part of an audit performed in accordance with Government



                                                  19
Board of Directors
Afghan Integrated Support Services
1200 Summit Ave, Suite 320
Fort Worth, Texas 76102

Auditing Standards in considering the entity’s internal control. Accordingly, this communication
is not suitable for any other purpose. This report is intended for the information of Afghan
Integrated Support Services, United States Department of Defense, and the Special Inspector
General for Afghanistan Reconstruction. Financial information in this report may be privileged.
The restrictions of 18 USC 1905 should be considered before any information is released to the
public.




Irvine, California
August 16, 2013




                                              20
                REPORT ON COMPLIANCE AND OTHER MATTERS
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                                Independent Auditors’ Report


Board of Directors
Afghan Integrated Support Services
1200 Summit Ave, Suite 320
Fort Worth, Texas 76102


We were engaged to perform a financial audit of costs incurred included in the accompanying
Fund Accountability Statement, which was based upon accounting records maintained by the
Afghan Integrated Support Services (AISS) for Contract No. W52P1J-11-C-0015 (Contract) with
the U.S. Department of Defense for the period December 30, 2010 through December 31, 2012,
and the related notes to the Fund Accountability Statement. We performed the audit in
accordance with the auditing standards generally accepted in the United States of America and
the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States, the Fund Accountability Statement of the
Afghan Integrated Support Services (AISS) representing revenues received and costs incurred
under Contract No. W52P1J-11-C-0015 (Contract) with the United States Department of
Defense for the period December 30, 2010 through December 31, 2012, and the related notes
to the Fund Accountability Statement, and have issued our report thereon dated June 25, 2013,
except as it relates to continuing education and peer review requirements as discussed in the
following paragraph.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by
reviewers independent of the organization at least once every three years. We subcontracted a
portion of the audit to an independent chartered public accounting firm with an office located in
Kabul, Afghanistan. The work performed by our subcontractor consisted of testing the spare
parts inventory stock held in the Central Warehouse Facility (CWF) and inspecting the CWF
constructed in Kabul under the Contract. Our subcontractor was not involved in the planning,
directing or reporting aspects of the audit. Our subcontractor did not meet the continuing
professional education requirements or peer review requirements as outlined in Government
Auditing Standards, as the firm is located and licensed outside of the United States of America.



                                               21
Board of Directors
Afghan Integrated Support Services
1200 Summit Ave, Suite 320,
Fort Worth, TX 76102

The results of the audit were not affected as we directed the procedures performed and
reviewed the work completed by our subcontractor.


Compliance and Other Matters

As part of obtaining reasonable assurance about whether AISS' Fund Accountability Statement
is free from material misstatement, we performed tests of its compliance with certain provisions
of laws, regulations, and the aforementioned Contract, noncompliance with which could have a
direct and material effect on the determination of Fund Accountability Statement amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance or other matters that are required to be reported under Government
Auditing Standards and which are described in the accompanying Findings and Responses as
Findings 2013-1, 2013-2 and 2013-4 through 2013-6.


AISS’ Response to Findings

AISS’ response to the finding identified in our audit is described in the accompanying Findings
and Responses, and included verbatim in Appendix A. AISS’ response was not subjected to the
auditing procedures applied in the audit of the costs incurred as presented on the Fund
Accountability Statement and, accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the
result of that testing, and not to provide an opinion on compliance. This report is an integral part
of an audit performed in accordance with Government Auditing Standards in considering the
entity’s compliance. Accordingly, this communication is not suitable for any other purpose. This
report is intended for the information of Afghan Integrated Support Services, United States
Department of Defense, and the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 USC 1905 should
be considered before any information is released to the public.




Irvine, California
August 16, 2013




                                                22
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                                    Findings and Responses

                For the Period December 30, 2010 through December 31, 2012


2013-1: Fixed Costs Claimed as Reimbursable Costs

Condition:
Lease of land in the amount of $212,504 and subcontract labor in the amount of $5,139 were
incorrectly recorded and claimed as reimbursable costs of the Central Warehouse Facility
(CWF). These costs should have been included as part of the fixed costs. Subsequent to
December 31, 2012, the U.S. Department of Defense (DoD) rejected the costs and AISS made
an adjusting entry to remove these costs from AISS accounting records. Total costs recorded
and claimed as reimbursable when they should have been included in the fixed costs were
$217,643.


Cause:
This condition occurred due to inadequate management oversight.


Criteria:
48 CFR 31.201-2, Determining Allowability, states, in part:

       “…(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements…”

Contract Number W52P1J-11-C-0015 between The U.S. Army Contracting Command, Rock
Island Contracting Center (RICC) and Afghan Integrated Support Services (AISS), section I-116,
32.9, Payment in Support of Emergency and Contingency Operations, states, in part:

        “… (5) Overpayments. If the Contractor becomes aware of a duplicate contract
        financing or invoice payment or that the Government has otherwise overpaid on
        a contract financing or invoice payment, the Contractor shall --

        (i) Remit the overpayment amount to the payment office cited in the contract
        along with a description of the overpayment, including
        the --

        (A) Circumstances of the overpayment (e.g., duplicate payment, erroneous
        payment, liquidation errors, date(s) of overpayment);…”




                                               23
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                                   Findings and Responses

                                          (Continued)


2013-1: Fixed Costs Claimed as Reimbursable Costs (Continued)

Effect:
Recorded and claiming components of fixed cost as reimbursable costs result in a double
counting of expenses and possible double payment by the United States Department of
Defense (DoD) for the same goods or services. Additionally, inadequate management oversight
allowed these costs to be claimed twice without being detected. This resulted in ineligible costs
of $217,643. However, the cost had been adjusted out of AISS accounting records’ subsequent
to December 31, 2012.


Recommendation:
We recommend that AISS review its invoices prior to submission to DoD to ensure that they do
not include a reimbursement request for costs that are also included as fixed costs.


Management Response:
AISS disagrees with the ineligible costs of $217,643. It indicates that the invoice provided was
internally prepared, was never submitted to DoD and DoD never paid it. AISS further indicates
that the cost was inaccurately booked by the AISS PMO and included on a preliminary draft
invoice to the PMO for their review.


Rebuttal to Management Response:
AISS’ management response indicated that the invoice was never submitted to DoD was
incorrect. DoD had confirmed to the auditors that AISS had submitted the invoice and it was
rejected by DoD subsequent to December 31, 2012. At the time of the audit, these costs were
reflected in the accounting records that were provided to the auditors. Accordingly, these costs
have been identified as questioned costs in the accompanying Fund Accountability Statement,
which was based upon the records provided by AISS to the auditors at the time of the audit. A
return of the costs to DoD is not required as DoD has not paid for these costs. Our
recommendation that AISS should review its invoices prior to submission to DoD remains
unchanged.




                                               24
                     AFGHAN INTEGRATED SUPPORT SERVICES

                             Financial Audit of Costs Incurred under
                                Contract No. W52P1J-11-C-0015

                                    Findings and Responses

                                           (Continued)


2013-2: Subcontract not Competitively Bid

Condition:
AISS subcontracted the construction of the CWF to one of its affiliate partners. The subcontract
was on a fixed fee basis totaling $2,361,926. However, the subcontract was not competitively
bid and there was no justification provided for awarding the contract on a sole source basis.
Total costs not competitively bid are as follows:

     Construction of the CWF                                  $2,579,569
     Less lease of land that should have been
      recorded as a fixed cost (Finding 2013-1)                  212,504
     Less subcontract labor that should have been
      recorded as a fixed cost (Finding 2013-1)                     5,139

       Total questioned costs due to CWF not
        being competitively bid                               $2,361,926


Cause:
AISS indicated that the subcontractor was an approved subcontractor on the award and that
competition was not warranted.


Criteria:
48 CFR 52.244-5, Competition in Subcontracting, states in part.

       “…(a) The Contractor shall select subcontractors (including suppliers) on a
       competitive basis to the maximum practical extent consistent with the objectives
       and requirements of the contract…”

Additionally, 48 CFR 31.201-3, Determining Reasonableness, states, in part:

       “…(a) A cost is reasonable if, in its nature and amount, it does not exceed that
       which would be incurred by a prudent person in the conduct of competitive
       business. Reasonableness of specific costs must be examined with particular
       care in connection with firms or their separate divisions that may not be subject
       to effective competitive restraints. No presumption of reasonableness shall be
       attached to the incurrence of costs by a contractor. If an initial review of the facts
       results in a challenge of a specific cost by the contracting officer or the
       contracting officer’s representative, the burden of proof shall be upon the
       contractor to establish that such cost is reasonable.”




                                                25
                     AFGHAN INTEGRATED SUPPORT SERVICES

                             Financial Audit of Costs Incurred under
                                Contract No. W52P1J-11-C-0015

                                    Findings and Responses

                                          (Continued)


2013-2: Subcontract not Competitively Bid (Continued)

Effect:
As the construction contract was not competitively bid, AISS did not comply with the
requirements of the Contract, and DoD may not have received the best pricing available.


Recommendation:
   (1) We recommend that AISS return $2,361,926 to the DoD for costs not competitively bid,
       or provide DoD with adequate justification as to why the contracts were awarded on a
       sole source basis.

   (2)   We recommend that AISS implement controls to ensure that all contracts are
         competitively bid. If a contract is not able to be competitively bid, then AISS should
         document its rationale for awarding a contract on a sole source basis.


Management Response:
AISS disagrees with the recommendation stating that this condition occurred due to insufficient
time allowed by DoD for AISS to complete the lease and construction phases of the project.
This forced AISS to award a firm fixed price sole source subcontract modification to a previously
existing subcontract agreement.


Rebuttal to Management Response:
A sole source justification was never provided for our review. Additionally, if AISS was forced to
procure on a sole source basis do to time constraints imposed by DoD, it should have
communicated with DoD and obtained approved for a sole source procurement prior to
awarding a subcontract. Our recommendation remains unchanged.




                                               26
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                                    Findings and Responses

                                          (Continued)


2013-3: Need to Adhere to Procurement Policies

Condition:
We tested 63 micro-purchases of spare parts, which are items with an individual cost up to
$3,000, totaling $217,224 and noted the following unsupported costs. While the micro-
purchases of spare parts have been invoiced to DoD, AISS has not yet received payment.

                                                               Number       Questioned
                         Observation                           of Errors      Cost
     Cash Disbursement Voucher is missing “received by”
      signatures                                                      5       $3,275
     Cash Deposit Voucher is not legible                              1        3,928
     No employee signature on Lost/Missing Receipt                    4        8,296
      Form
     The total amount reported on the Micro Purchase
      Fund Summary does not agree to the Cash
      Disbursement Voucher                                            1          119
     Cash Disbursement Vouchers are missing “received
      by” signatures and no employee signature on
      Lost/Missing Receipt Form                                       2        2,000

       Total questioned costs related to spare parts               13       $17,618


Cause:
This condition occurred due to inadequate management oversight.


Criteria:
48 CFR 31.201-2, Determining Allowability, states, in part:

       “…(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements…”




                                               27
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                                   Findings and Responses

                                          (Continued)


2013-3: Need to Adhere to Procurement Policies (Continued)

Effect:
Lack of or insufficient documentation to support the costs incurred results AISS’ inability to
prove that proper spare parts were approved for purchase, ordered, received and that contract
funds were used as intended. Total questioned costs due to a lack of adherence to
procurement policies is $17,618.


Recommendation:
   (1) We recommend that AISS either return $17,618 to DoD for insufficiently supported
       purchases of spare parts, or provide DoD with adequate supporting documentation.

   (2)   We recommend that AISS establish procedures to ensure that all accounting and
         procurement policies pertaining to the maintenance of supporting documentation for
         spare parts are followed per the terms of the Contract and related Federal regulations.


Management Response:
AISS disagrees with the questioned costs of $17,618 stating that while AISS has included these
costs on an invoice to DoD, the invoice has not yet been paid. AISS further states that
corrected Cash Disbursement Vouchers were created in Fort Worth, Texas and will not contain
the “Received by” information. It has established procedures to ensure that all accounting and
procurement policies are followed.


Rebuttal to Management Response:
The documentation originally provided for our review that gave rise to the questioned costs were
either not completed, illegible or missing supporting information. Without complete and legible
information available to review, the allowability of the costs is questionable.              Our
recommendation remains unchanged.




                                              28
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                                   Findings and Responses

                                         (Continued)


2013-4: Defense Base Act (DBA) Insurance Premium not Adequately Supported

Condition:
AISS reported DBA insurance premiums in the amount of $356,528 for the period December 30,
2010 through December 31, 2012. This amount consisted of DBA insurance premiums incurred
by AECOM for the policy years ended January 14, 2012 and January 14, 2013, and for one of
its subcontractors for the policy year ended May 1, 2011. Unsupported DBA insurance
consisted of the following.

   •   AECOM recorded estimated DBA insurance premium for the policy year ended January
       14, 2013 in the amount of $96,249. A reconciliation was not performed until March
       2013, and AISS did not provide supporting documentation for the payroll costs used in
       the calculation prior to the end of our audit. As such, we questioned the total amount
       recorded of $96,249.

   •   AECOM incurred DBA insurance costs for the policy year ended January 14, 2012 in the
       amount of $100,147. Of this amount, the following has been questioned:

                                                                         Number      Questioned
                                 Observation                          of Employees   DBA Cost
              No support provided for time charged                          2         $ 460
              No support provided for time charged and no
                supervisor approval on timesheets                           1           2,696
              No supervisor approval and no job code on
                timesheets                                                  1             616
              No supervisor approval on timesheets                          1           5,041
              Incorrect job codes on timesheets                            11           6,926

                Total questioned costs related to DBA premium
                 for 2012                                                  16         $15,739

       •   AISS claimed DBA insurance for its subcontractor for the policy year ended May 1,
           2011 in the amount of $160,132. However, no supporting documentation was
           provided for the payroll costs used in the calculation of the DBA premium. As such,
           we questioned the total amount recorded of $160,132.




                                              29
                     AFGHAN INTEGRATED SUPPORT SERVICES

                             Financial Audit of Costs Incurred under
                                Contract No. W52P1J-11-C-0015

                                    Findings and Responses

                                           (Continued)


2013-4: Defense Base Act (DBA) Insurance Premium not Adequately Supported
(Continued)

The total DBA premiums questioned were as follows:

                                                                                Questioned
                                    Description                                   Cost
               AECOM – DBA policy for year ended January 14, 2013               $ 96,249
               AECOM – DBA policy for year ended January 14, 2012                 15,739
               Subcontractor – DBA policy for year ended May 1, 2011             160,132

                 Total questioned costs related to DBA insurance                $272,120


Cause:
This condition occurred due to AISS’ inability to provide the requested documentation to support
the DBA insurance costs claimed.


Criteria:
48 CFR 31.201-2, Determining Allowability, states, in part:

       “…(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements…”

Additionally, 48 CFR 52.215-2, Audit and Records – Negotiation, states, in part:

       “…(b) Examination of costs. If this is a cost-reimbursement, incentive, time-and-
       materials, labor-hour, or price redeterminable contract, or any combination of
       these, the Contractor shall maintain and the Contracting Officer, or an authorized
       representative of the Contracting Officer, shall have the right to examine and
       audit all records and other evidence sufficient to reflect properly all costs claimed
       to have been incurred or anticipated to be incurred directly or indirectly in
       performance of this contract…”




                                                30
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                                   Findings and Responses

                                          (Continued)


2013-4: Defense Base Act (DBA) Insurance Premium not Adequately Supported
(Continued)

Effect:
Without supporting documentation, AISS cannot demonstrate whether they paid an appropriate
amount for insurance premiums. Consequently, AISS may have overpaid or under-insured
employees working in a war zone. Lack of supporting documentation resulted in questioned
costs of $272,120.


Recommendation:
   (1) We recommend that AISS either return $272,120 to the DoD for unsupported DBA
       insurance premiums or provide adequate supporting documentation to the DoD.

   (2)   We recommend that AISS establish procedures to ensure that all accounting and
         procurement policies are followed per the terms of the Contract and related Federal
         regulations, and that if premiums are charged based upon estimates, that
         reconciliations occur timely after the end of the premium year and premiums and/or
         invoices to DoD be adjusted accordingly.


Management Response:
AISS disagrees with the questioned costs of $272,120 for the following reasons:

     •   For $96,249 of the questioned costs, AISS provided an updated general ledger for our
         review on April 26, 2013.

     •   For $15,739 of the questioned costs, AISS provided alternate documentation as
         support.

     •   For $160,132 of the questioned costs, AISS provided a final premium worksheet and
         indicated that its subcontractor can provide records to support the labor costs.


Rebuttal to Management Response:
On April 26, 2013, AISS did provide an updated general ledger and labor files for the policy year
ended January 14, 2013, but this reconciliation did not contain the supporting timesheets,
employment agreements, and job descriptions etc. to support the labor cost claimed.
Additionally, the payroll documentation provided for the policy year ended January 14, 2012, did
not follow AISS payroll processing procedures, such as supervisor approval, including the job
code for the project and no time sheets, etc. Finally, no documentation was provided to support
the subcontractor’s final premium worksheet. Our recommendation remains unchanged.



                                               31
                              AFGHAN INTEGRATED SUPPORT SERVICES

                                        Financial Audit of Costs Incurred under
                                           Contract No. W52P1J-11-C-0015

                                                  Findings and Responses

                                                            (Continued)


2013-5: CWF not Built in Accordance with Approved Floor Plan and Cost Proposal

Condition:
During our physical inspection of the Central Warehouse Facility (CWF), we noted that the CWF
was not built in accordance with the approved floor plan and the original cost proposal. Rather,
the CWF was built based on an amended floor plan and revised cost proposal that were never
submitted to DoD for approval.


Cause:
AISS indicated that DoD never requested to review or approve the original plans or the
amended plans.


Criteria:
48 CFR 52.236-21, Specifications and Drawings for Construction, states, in part:

          “(e) If this contract requires shop drawings1 the Contractor shall coordinate all
          such drawings, and review them for accuracy, completeness, and compliance
          with contract requirements and shall indicate its approval thereon as evidence of
          such coordination and review. Shop drawings submitted to the Contracting
          Officer without evidence of the Contractor’s approval may be returned for
          resubmission. The Contracting Officer will indicate an approval or disapproval of
          the shop drawings and if not approved as submitted shall indicate the
          Government’s reasons there for. Any work done before such approval shall be at
          the Contractor’s risk. Approval by the Contracting Officer shall not relieve the
          Contractor from responsibility for any errors or omissions in such drawings, nor
          from responsibility for complying with the requirements of this contract, except
          with respect to variations described and approved in accordance with (f) of this
          clause.

Additionally, 48 CFR 50.103-3. Contract adjustment, states in part:

          “(a) Contractor requests. A contractor seeking a contract adjustment shall submit
          a request in duplicate to the contracting officer or an authorized representative.
          The request, normally a letter, shall state as a minimum—


1
  Shop drawings means drawings, submitted to the Government by the Contractor, subcontractor, or any lower tier subcontractor
pursuant to a construction contract, showing in detail (1) the proposed fabrication and assembly of structural elements and (2) the
installation (i.e., form, fit, and attachment details) of materials or equipment. It includes drawings, diagrams, layouts, schematics,
descriptive literature, illustrations, schedules, performance and test data, and similar materials furnished by the contractor to explain
in detail specific portions of the work required by the contract. The Government may duplicate, use, and disclose in any manner
and for any purpose shop drawings delivered under this contract.



                                                                  32
                     AFGHAN INTEGRATED SUPPORT SERVICES

                             Financial Audit of Costs Incurred under
                                Contract No. W52P1J-11-C-0015

                                    Findings and Responses

                                          (Continued)


2013-5: CWF not Built in Accordance with Approved Floor Plan and Cost Proposal
(Continued)

       “(1) The precise adjustment requested;

       (2) The essential facts, summarized chronologically in narrative form;

       (3) The contractor’s conclusions based on these facts…”


Effect:
The CWF construction and associated cost may have deviated significantly from the original
intent of the program without DoD’s knowledge or approval. In addition, it is not possible to
ensure that the proper materials were used or that the construction was built in accordance with
the approved warehouse blueprints if an amended floor plan was not available during the
monitoring process.


Recommendation:
We recommend that AISS obtain retroactive approval from an appropriate DoD Contracting
Officer for the new floor plan and cost proposal of the CWF, and develop a control to ensure
that AISS obtains prior approval from the Contracting Officer on all future construction projects.


Management Response:
AISS disagrees with the recommendation and indicated that per communication with the DoD,
the DoD would not tell AISS how or what to build. AISS indicated that there were some
changes made to the plan, but the basic plan was followed.


Rebuttal to Management Response:
No documentation was provided during the audit to indicate that AISS attempted to obtain prior
approval for the warehouse plans that were subsequently amended, nor were we provided the
approval from DoD to proceed. Our recommendation remains unchanged.




                                               33
                     AFGHAN INTEGRATED SUPPORT SERVICES

                             Financial Audit of Costs Incurred under
                                Contract No. W52P1J-11-C-0015

                                    Findings and Responses

                                          (Continued)


2013-6: Lack of an Adequate Tracking System for Spare Parts Inventory

Condition:
Spare parts in the warehouse were tagged with a computerized label. However, the
identification code used does not identify the source of the spare part, i.e. whether it was
purchased under the Contract, donated by the U.S. Government, or transferred from the prior
contract.

AISS tracks its spare parts using WebManage, which allows for tracking an item from placing
the purchase order through to the final issuance of the spare part. Also, this system is linked to
COREIMSEE, a web-based system, to track equipment maintenance service as required by the
Contract Performance Work Statement. Although AISS heavily relied on WebManage, an
external audit or examination of the system was never performed. We were granted access to
the system and downloaded a tracking report at a point in time, and had identified there were
numerous duplicate spare parts items appearing in the report. AISS explained that these
duplicates were due to system errors and were immediately deleted from the system portal
when the issues were raised during audit fieldwork.

The accuracy of the reports generated through WebManage is important for reconciliation
purposes to identify, if proper documentation is maintained for the inventory of spare parts held
at any given time under this program.

A similar condition was previously reported in the December 2011 review performed by the U.S.
Defense Contract Management Agency (DCMA).

Cause:
AISS did not have an external review performed of the WebManage system to ascertain if the
system was operating effectively as it was not required under the Contract.


Criteria:
The Contract Performance Work Statement, states, in part:

       “9. TRACKING MAINTENANCE. The contractor shall establish an automated
       system that interfaces with COREIMSEE, a web base system, to track equipment
       maintenance service, Forecast Delivery Date (FDD) status, condition and
       inventory of the fleet, and awaiting parts. The contractor shall select, from a
       commercially available source, a management information system to maintain
       the database. The computerized hardware and management systems shall be
       provided by the contractor in all ANA shops that have advisory mentor teams
       assigned. The contractor will be responsible for training the ANSF to use the
       contractor provided information management system. …”



                                               34
                     AFGHAN INTEGRATED SUPPORT SERVICES

                            Financial Audit of Costs Incurred under
                               Contract No. W52P1J-11-C-0015

                                   Findings and Responses

                                          (Continued)


2013-6: Lack of an Adequate Tracking System for Spare Parts Inventory (Continued)

Effect:
By not tracking the spare parts by source, AISS is not able to be accountable to each entity
providing the spare parts (i.e. DoD through this Contract, and the U.S. Government) and hence
may not be alerted to missing spare parts in a timely manner. In addition, if an external review
is not performed on the WebManage system, AISS will not be aware as to whether there are
any issues with the system in providing timely and accurate information.


Recommendation:

   (1)   We recommend that AISS establish a system to identify the funding source of the
         spare parts.

   (2)   We recommend that an external review be conducted on the WebManage system to
         ensure it is accumulating and tracking information correctly.


Management Response:
AISS disagrees with the recommendation and stated that tracking the source of the spare part
would increase the workload on its procurement and receiving staff. It does not see the value of
tracking the source of the inventory item, but indicates its system can do so, if required.


Rebuttal to Management Response:
Adequate tracking of the source is necessary to ensure all spare parts can be associated with
the specific grant or contract under which they were procured, and minimize the likelihood of the
cost being claimed under multiple funding sources. Our recommendation remains unchanged.




                                               35
                                                                                   APPENDIX A
                     AFGHAN INTEGRATED SUPPORT SERVICES

                             Financial Audit of Costs Incurred under
                                Contract No. W52P1J-11-C-0015

                                  AISS Response to Findings

                For the Period December 30, 2010 through December 31, 2012


Included on the following pages are AISS’ response to the findings identified in this report. In
addition to the narrative response, AISS provided documentation that, in its opinion, supports its
position on various findings. Due to the voluminous nature of this documentation, it has not
been included within this report. The documentation has been provided to SIGAR under
separate cover.




                                               36
                                                            AISS                         817 243 4386   tel
                                                            DAFZA East Wing Phase 4 4A   817 698 6854   fax
                                                            Suite 608

AISS                                                        Dubai, AE
                                                            United Arab Emirates

Afghan Integrated Support Services


2013-1: Fixed Costs Claimed as Reimbursable Costs

Effect:
Recorded and claiming components of fixed cost as reimbursable costs result in a
doublecounting of expenses and possible double payment by the United States Department
of Defense (DoD) for the same goods or services. Additionally, inadequate management
oversight allowed these costs to be claimed twice without being detected. This resulted in
ineligible costsof $217,643.


Recommendation:

     (1) We recommend that AISS return $217,643 to DoD for costs claimed as reimbursable
         which were also included in the fixed costs component.

     (2) We recommend that AISS review its invoices prior to submission to DoD to ensure
         that they do not include a reimbursement request for costs that are also included as
         fixedcosts.


Management Response:

     (1) AISS does not concur with the $217,643 questioned cost. AISS internally prepared a draft
         USG invoice that contained the $212,540 for land lease and the $5,139 for subcontractor
         labor. However, the prepared draft invoice was never submitted to the USG. Hence, the
         USG never paid for those costs and reimbursement of those costs is invalid.

     (2) AISS invoice review process –
        This cost was inaccurately booked by the AISS PMO and consequently, included on
         a preliminary draft invoice to the PMO for their review. Had the draft invoice actually
         been raised to the customer, the Billing Group’s internal review of this draft invoice
         would have caught the coding error and would have been revised at that time.

          We are unsure how this draft invoice made it to CBIZ/SIGAR, but again - was never
          submitted to the USG.




                                               37
                                                          AISS                         817 243 4386   tel
                                                          DAFZA East Wing Phase 4 4A   817 698 6854   fax
                                                          Suite 608

AISS                                                      Dubai, AE
                                                          United Arab Emirates

Afghan Integrated Support Services


2013-2: Subcontract not Competitively Bid

Effect:
As the construction contract was not competitively bid, AISS did not comply with the
requirements of the Contract, and DoD may not have received the best pricing available.


Recommendation:
   (1) We recommend that AISS return $2,361,926 to the DoD for costs not competitively
       bid, or provide DoD with adequate justification as to why the contracts were awarded
       on a sole source basis.

     (2) We recommend that AISS implement controls to ensure that all contracts are
         competitively bid. If a contract is not able to be competitively bid, then AISS should
         document its rationale for awarding a contract on a sole source basis.


Management Response:

AISS disagrees with the recommendation.

The USG refused to allow sufficient time to compete the lease and construction phases of
this effort. Had the USG allow time AISS would have select subcontractors on a competitive
basis, to the maximum practical extent consistent with the objectives and requirements of
the contract. However, the USG’s position forced AISS to award a firm fixed price sole
source subcontract modification to AFGS and included the effort into their previously
existing subcontract agreement. The sole source justification identified the effort being with
a known provider, which was already vetted and on the program, having the staff and
resources to perform the effort, and was willing to assume the additional responsibilities, at
what we deemed to be a reasonable price.




                                              38
                                                              AISS                              817 243 4386    tel
                                                              DAFZA East Wing Phase 4 4A        817 698 6854    fax
                                                              Suite 608

AISS                                                          Dubai, AE
                                                              United Arab Emirates

Afghan Integrated Support Services


2013-3: Need to Adhere to Procurement Policies

Effect:
Lack of or insufficient documentation to support the costs incurred results AISS’ inability
toprove that proper spare parts were approved for purchase, ordered, received and that
contractfunds were used as intended. Total questioned costs due to a lack of adherence to
procurement policies is $17,618.

Recommendation:

     (1) We recommend that AISS either return $17,618 to DoD for insufficiently supported
         purchases of spare parts, or provide DoD with adequate supporting documentation.

     (2) We recommend that AISS establish procedures to ensure that all accounting and
         procurement policies pertaining to the maintenance of supporting documentation for
         spare parts are followed per the terms of the Contract and related Federal
         regulations.


Management Response:

     (1) AISS does not concur with the $17,618 questioned cost related to spare parts. AISS has
         submitted an invoice to the USG. However, the USG has not accepted this invoice at this
         time, and hence AISS has not yet received payment. AISS will provide the adequate
         supporting documentation to the USG.

          These correction Cash Disbursement Vouchers (CDVs) were created in Fort Worth
          and will not have Received By on the voucher. The correction CDVs were signed by
          the Controller, Director of Financial Operations or a Financial Operations team
          member. The initial CDVs submitted by AISS notated to see supporting
          documentation as the Received By signature. AISS’ CDVs can be supported with
          proper documentation.

          AISS has provided a legible copy of CDV: COR6006-Voucher#76132, $3,928
          (attached as CDV_COR6006_V76132.pdf).

     (2) AISS has established procedures to ensure that all accounting and procurement policies are
         followed.

                               Observation                   Questioned Costs      Concur           Do Not Concur
 Cash Disbursement Voucher is missing “received by”
 signatures                                                              $3,275            $0                  $3,275
 Cash Deposit Voucher is not legible                                     $3,928            $0                  $3,928
 No employee signature on Lost/Missing Receipt Form                      $8,296            $0                  $8,296
 The total amount reported on the Micro Purchase
 Fund Summary does not agree to the Cash
 Disbursement Voucher                                                      $119            $0                   $119



                                                      39
                                                          AISS                              817 243 4386     tel
                                                          DAFZA East Wing Phase 4 4A        817 698 6854     fax
                                                          Suite 608

AISS                                                      Dubai, AE
                                                          United Arab Emirates

Afghan Integrated Support Services



                               Observation               Questioned Costs      Concur           Do Not Concur
 Cash Disbursement Vouchers are missing “received
 by” signatures and no employee signature on
 Lost/Missing Receipt Form                                           $2,000            $0                   $2,000
 Total questioned costs related to spare parts                      $17,618            $0                  $17,618




                                                    40
                                                                  AISS                         817 243 4386   tel
                                                                  DAFZA East Wing Phase 4 4A   817 698 6854   fax
                                                                  Suite 608

AISS                                                              Dubai, AE
                                                                  United Arab Emirates

Afghan Integrated Support Services


2013-4: Defense Base Act (DBA) Insurance Premium not Adequately Supported


Effect:
Without supporting documentation, AISS cannot demonstrate whether they paid an appropriate
amount for insurance premiums. Consequently, AISS may have overpaid or under-insured
employees working in a war zone. Lack of supporting documentation resulted in questioned costs of
$272,120.


Recommendation:

          (1) We recommend that AISS either return $272,120 to the DoD for unsupported DBA
          insurance premiums or provide adequate supporting documentation to the DoD.

          (2) We recommend that AISS establish procedures to ensure that all accounting and
          procurement policies are followed per the terms of the Contract and related Federal
          regulations, and that if premiums are charged based upon estimates, that reconciliations
          occur timely after the end of the premium year and premiums and/or invoices to DoD be
          adjusted accordingly.


Management Response:

     (1) AISS does not concur with the $96,249 questioned costs for the AISS DBA true-up for policy
         year ended January 14, 2013. The $96,249 DBA true-up was based on $8.6M of incurred
         labor. On April 26, AISS provided Andrea Jayasekara, CBIZ MHM, LLC; the updated
         general ledger labor files (see attached files AISS DBA Policy Jan 14 2012-13.pdf and
         2ATMPF DBA Labor True Up.xlsx attached). The file reflects $8.8M of incurred labor. The
         refined $8.8M of labor will result in an additional premium being invoiced by Marsh to AISS, in
         excess of the original $96,249. Once AISS pays the additional premium, it will be billed to the
         USG.

          AISS does not concur with the $15,739 timesheet questioned costs for DBA policy for the
          year ended January 14, 2012. AISS believes that alternative documents provide sufficient
          support to reflect labor was incurred in performance of this contract.

                                               Questioned                  Do Not
 Observation                                   Costs         Concur        Concur      Comments
                                                                                       (1) EE G04752 terminated 10/24/11,
                                                                                       in the middle of a timesheet period.
                                                                                       His last timesheet period labor ended
                                                                                       11/4/11, which aligns with the
                                                                                       general ledger detail. (2) EE G04679
 No support provided for time charged          $460          $0           $460
                                                                                       terminated 9/29/11 and was not paid
                                                                                       for questioned timesheet periods;
                                                                                       leave without pay hours reported
                                                                                       administratively until change of
                                                                                       status completed.

 No support provided for time charged and no                                           Alternative documents should
                                               $2,696        $0           $2,696
 supervisor approval on timesheets                                                     provide sufficient support.




                                                        41
                                                                 AISS                         817 243 4386    tel
                                                                 DAFZA East Wing Phase 4 4A   817 698 6854    fax
                                                                 Suite 608

AISS                                                             Dubai, AE
                                                                 United Arab Emirates

Afghan Integrated Support Services



 No supervisor approval and no job code on                                            Alternative documents should
                                             $616           $0           $616
 timesheets                                                                           provide sufficient support.

                                                                                      Alternative documents should
 No supervisor approval on timesheets        $5,041         $0           $5,041
                                                                                      provide sufficient support.

                                                                                      DBA is calculated on payroll dollars,
                                                                                      regardless of how it was coded.
 Incorrect job codes on timesheets           $6,926         $0           $6,926
                                                                                      These payroll dollars are part of the
                                                                                      premium.

 Total questioned costs related to DBA
                                             $15,739        $0           $15,739
 premium for 2012


          AISS does not concur with the $160,132 questioned costs associated with AFGS’ DBA true-
          up. AFGS is a subcontractor to AISS. AFGS provided the attached Final Premium Audit
          Worksheet and can provide labor records to support the final labor reported.

     (2) AISS has established procedures to ensure timely reconciliation of final premium audits.




                                                       42
                                                              AISS                         817 243 4386   tel
                                                              DAFZA East Wing Phase 4 4A   817 698 6854   fax
                                                              Suite 608

AISS                                                          Dubai, AE
                                                              United Arab Emirates

Afghan Integrated Support Services


2013-5: CWF not Built in Accordance with Approved Floor Plan and Cost Proposal
  “ (1) The precise adjustment requested;
   (2) The essential facts, summarized chronologically in narrative form;
   (3) The contractor’s conclusions based on these facts…”


Effect:
The CWF construction and associated cost may have deviated significantly from the original
intent of the program without DoD’s knowledge or approval. In addition, it is not possible to
ensure that the proper materials were used or that the construction was built in accordance
with the approved warehouse blueprints if an amended floor plan was not available during
the monitoring process.


Recommendation:
We recommend that AISS obtain retroactive approval from an appropriate DoD Contracting
Officer for the new floor plan and cost proposal of the CWF, and develop a control to ensure
that AISS obtains prior approval from the Contracting Officer on all future construction
projects.


Management Response:

AISS disagrees with the recommendation. AISS did request USG concurrence with our
plans. When we asked questions to the USG about the warehouse they very pointedly said
they would not be telling us how or what to build. Cheryl Nielsen (PCO) issued the NTP
against our Proposal. There were some changes but we followed the Basic plan.

The following are extracts from our questions and the USG’s response:

     1. Once parts are authorized for procurement by AISS, there is no facility to receive, store and
        issue these parts from; is the Government going to issue another phased NTP that requires a
        warehouse facility?
        ANSWER: No, the government will not be specifying how the contractor should store
        equipment. Inventory shall be stored in a manner that provides protection from
        environmental effects and, at the contractor’s discretion, is most efficient for
        facilitating the contractor’s supply chain management. Inventory shall be monitored,
        maintained, and protected at the contractor’s location.

     2. Does the Government expect AISS to operate the Supply Chain Management operations
        from just a container yard without the use/construction of a warehouse facility?
        ANSWER: The government will not be specifying how the contractor should conduct
        Supply Chain Management operations. Our expectation is for AISS to determine what
        is required to conduct operations in the most efficient and effective manner, to include
        a warehouse facility, if necessary.




                                                 43
                                                         AISS                         817 243 4386   tel
                                                         DAFZA East Wing Phase 4 4A   817 698 6854   fax
                                                         Suite 608

AISS                                                     Dubai, AE
                                                         United Arab Emirates

Afghan Integrated Support Services


2013-6: Lack of an Adequate Tracking System for Spare Parts Inventory

Effect:
By not tracking the spare parts by source, AISS is not able to be accountable to each entity
providing the spare parts (i.e. DoD through this Contract, and the U.S. Government) and
hence may not be alerted to missing spare parts in a timely manner. In addition, if an
external review is not performed on the WebManage system, AISS will not be aware as to
whether there are any issues with the system in providing timely and accurate information.


Recommendation:

     (1) We recommend that AISS establish a system to identify the funding source of the
         spare parts.

     (2) We recommend that an external review be conducted on the WebManage system to
         ensure it is accumulating and tracking information correctly.


Management Response:

AISS disagrees with the recommendation. The AISS Central Warehouse alone has 10,000
lines and nearly 1 million individual items. In order to track the source property, each part
would have to be marked with its source. This will dramatically increase the workload on the
procurement and receiving staff. It will make inventories, receiving, and shipping more
complex and error-prone. Tracking by source would effectively triple or quadruple our bin
locations which opens up numerous tracking problems and would be far more likely a root
cause for loss of accountability.

Once received into WebManage, all parts immediately become GFE and are
indistinguishable from each other. An oil filter received from the USG, a supplier, or RMA is
utilized and counted in exactly the same manner. AISS does not see the added value of
tracking the source of each part but WebManage does have this functionality if tracking by
source becomes a contractual requirement in the future.

Additionally, the paragraph referenced/quoted from the PWS does not address tracking by
source. It lays out the process exactly as what we are doing on the Program. The only time
we have ever heard anything from the USG on special tracking it was for FMS items of
which we have none.




                                             44
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
